~'OCKLE

~ Legal

231 I Douglas Street
Omaha. Nebraska 68102- 12 14

Briefs
Est. 1923

1-800-225-6964
( 402) 342-283 1
Fax: (402) 342-4850

E-Mail Address:
contact@ cocklelegalbriefs.com
Web Site
www.cocklelegalbriefs.com

No. - - -HAMDI MOHAMUD,
Petitioner,
V.

HEATHER WEYKER,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1 (h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
R ule 33 .1 (b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 6436 words, excluding the parts that are exempted by Supreme
Court Rule 33 .1 (d), as needed.

Subscribed and sworn to before me this 6th day of Aug ust, 2021.
I am duly authorized under the laws of the State of Nebraska to admi nister oaths.

NERAL JIOTARY-State of flllbraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023

Affiant

411 28

